OFFICE OF THE ATTORNEY GENERAL
Criminal Appeals Division, Tallahassee

 

TRISHA MEGGS PATE
ASHLEY MOODY Bureau Chief, Criminal Appeals
ATTORNEY GENERAL The Capitol
STATE OF FLORIDA Tallahassee, Florida 32399-1050
Telephone (850) 414-3300

Fax (850) 922-6674

 

April 13, 2021

The Honorable Scott S. Harris, Clerk
United States Supreme Court

One First Street, N.E.

Washington, D.C. 20543

Re: Christopher Nathaniel Brown v. State of Florida,
Case No. 20-7500

Dear Mr. Harris:

The State of Florida recently received a copy of the petitioner’s petition for writ of
certiorari. Please be advised that the State of Florida will continue to follow its
long held position on these matters and will respectfully decline to answer petitions
filed in non-capital cases unless the Court requests a response. If the Court
requests a response, the State of Florida will provide one.

espectfully submi

   

TRISH.
Bureau Chief,
Tallahassee Criminal Appeals
Fla. Bar No. 0045489
(850)414-3300

ce: Christopher Brown, DC #890988
Graceville Correctional Facility
5168 Ezell Road
Graceville, FL 32440-2402
